Audit Report-Executive Summary



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues by theVirgin Islands Police Department
GR-40-01-003March 2001
Office of the Inspector General

AUDIT RESULTS
The United States Department of Justice (DOJ), Office of the Inspector General, has completed an audit of the use of equitable sharing revenues by the Virgin Islands Police Department (VIPD).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of criminal investigations.  The objective of our audit was to determine if the VIPD complied with DOJ guidelines governing the accountability and use of equitably shared forfeited assets.  The audit included a review of all equitable sharing activities at the VIPD since FY 1991.

	In brief, we found the VIPD did not comply with DOJ guidelines.  As a result, we question the $137,822 in equitable sharing funds provided to the VIPD since FY 1991.  Specifically, our audit found that the VIPD:

	Did not maintain adequate documentation to account for $137,822 in equitable sharing funds received.  

	Could not provide documentation to show that the $137,822 in equitable shared funds received was used for law enforcement purposes. 

	Submitted administrative reports that:  (1) were as much as 3 years late, (2) contained inaccurate data, and (3) were not signed by the governing body head as required.
  
	Did not have annual independent audits completed as required.

	Details of our work are contained in the Findings and Recommendation section of the report.  The audit background, scope, and methodology are contained in Appendix I.